C-1
Filed 4/9/20 Marriage of K.R. and A.P. CAl/3

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion has not been certified for publication or
ordered published for purposes of rule 8.1115.__________________________________________________________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION THREE

In re the Marriage of K.R. and A.P..
K.R.,
Petitioner and Respondent,

A151036, A149624

v.
(Alameda County
Super. Ct. No. VF07356209)

A.P.,
Respondent and Appellant.

INTRODUCTION
In these consolidated appeals, A.P. (Husband) seeks reversal of two
post-dissolution judgments in marital dissolution proceedings with his former
wife, K.R. (Wife). In case A149624, Husband argues the trial court failed to
divide the community property assets in certain bank accounts as required by
Family Code, section 2550,1 erroneously calculated Watts/Espstein credits,2
and erroneously imposed a constructive trust. In case A151036, Husband

1

All statutory references are to the Family Code, unless otherwise
stated.
2

In re Marriage of Watts (1985) 171 Cal.App.3d 366 (Watts); In re
Marriage of Epstein (1979) 24 Cal.3d 76 (Epstein).
1

C-2
challenges the trial court’s spousal and child support determinations.
Husband also purports to appeal from the denial of his motion to vacate the
judgment in case A149624, as well as the denial of his request to stay the
judgment without bond. We conclude Husband’s contention that the trial
court failed to divide assets in the bank accounts has merit, but his remedy is
a motion or to seek an order to show cause in the trial court pursuant to
section 2556. Husband forfeited his other contentions by failing to follow the
rules governing appellate review. Furthermore, even if we were to address
those contentions, Husband has failed to demonstrate reversible error. We
affirm both judgments.

BACKGROUND
Husband and Wife were married in May 1999 and separated in
November 2007. A July 2010 judgment terminated their marital status and
reserved the family court’s jurisdiction over all other issues, including child
support of their two minor children. Trials on the reserved issues
encompassed 10 days over three months from October 2015 to February 2016.
The trial court entered judgment on the division of the parties’ property
on June 21, 2016 (property judgment). Husband moved to set aside and
vacate the property judgment on July 5, 2016, on the grounds that Wife failed
to disclose her remarriage and her interest in a $1.4 million home that she
shared with her new husband. Husband filed a notice of appeal on October 3,
2016, while the motion to vacate was still pending. The court heard the
motion to vacate on October 27, 2016. Husband failed to appear at the
hearing and the motion was dismissed without prejudice.
The trial court entered judgment on the child and spousal support
issues on December 1, 2016 (support judgment). Husband moved vacate the
support judgment on January 20, 2017. The trial court denied the motion on

2

C-3
March 21, 2017. Husband filed an amended notice of appeal on March 28
2017.
On August 17, 2017, while the instant appeals were pending, Husband
filed another request to vacate the property judgment based on the same
grounds as his prior motion to vacate. The trial court denied the request as
untimely.
DISCUSSION
A.

Standard of Review
We review the trial court’s judgment dividing marital property for an

abuse of discretion. (In re Marriage of Dellaria & Blickman-Dellaria (2009)
172 Cal.App.4th 196, 201 (Dellaria)) Spousal support and child support
awards are also reviewed for an abuse of discretion. (In re Marriage of
Wittgrove (2004) 120 Cal.App.4th 1317, 1327; In re Marriage of
Cheriton (2001) 92 Cal.App.4th 269, 282—283.) We review the trial court’s
factual findings under the substantial evidence standard. (Dellaria,
supra, 172 Cal.App.4th at p. 201; In re Marriage of Ettefagh (2007) 150
Cal.App.4th 1578, 1584.) The interpretation of a statute presents a question
of law that we review de novo. (Dellaria, supra, 172 Cal.App.4th at p. 201; In
re Marriage of Rothrock (2008) 159 Cal.App.4th 223, 230.)
B.

The Property Judgment (A149624)
1. Division of Community Assets in Wife’s Individual Accounts
Absent an agreement by the parties, section 2550 imposes on the trial

court a mandatory, nondelegable duty to value and divide equally the parties’
community property estate in martial dissolution proceedings. (See
§ 2550; In re Marriage of Cream (1993) 13 Cal.App.4th 81, 89; In re Marriage
of Knickerbocker (1974) 43 Cal.App.3d 1039, 1044; see also In re Marriage of
Walrath (1998) 17 Cal.4th 907, 924.) The trial court must first “characterize”

3

C-4
the property by determining which property owned by the parties is part of
the community property estate. “Characterization of property, for the
purpose of community property law, refers to the process of classifying
property as separate, community, or quasi-community. Characterization
must take place in order to determine the rights and liabilities of the parties
with respect to a particular asset or obligation and is an integral part of the
division of property on marital dissolution.” {In re Marriage of Haines (1995)
33 Cal.App.4th 277, 291.)
In general, a spouse maintains as his or her separate property all
property acquired prior to marriage; property acquired during the marriage
that can be traced to a separate property source; and property acquired
during the marriage by gift, bequest, devise or descent. (§ 770, subd. (a);
see In re Marriage of Weaver (1990) 224 Cal.App.3d 478, 484.) Other
property acquired by a married person during the marriage presumptively is
community property. (§ 760; In re Marriage of Bonds (2000) 24 Cal.4th 1,
12.) The party claiming that property acquired during the marriage is his or
her separate property has the burden of overcoming this presumption by a
preponderance of the evidence. {In re Marriage of Ettefagh, supra, 150
Cal.App.4th at pp. 1585, 1591.)
Husband argues the trial court failed to divide community assets in
Wife’s individual bank account and related certificate of deposit (CD) in
violation of section 2550. The bank account and CD were issues addressed at
trial. Neither the trial court’s statement of decision nor the property
judgment purports to characterize, value or divide the assets in the bank
account and CD. Husband objected to the trial court’s failure to do so in his
objections to the proposed statement of decision.

4

C-5
The bank account and CD were apparently assets of the community
estate before the trial court. The trial court was obligated to characterize,
value, and divide them when it divided the remainder of the community
estate. But the court’s omission does not require reversal of the property
judgment. The property judgment does not improperly characterize, value or
divide these assets. Instead, it omits them entirely. A party’s remedy in such
cases is to move or seek an order to show cause in the trial court pursuant to
section 2556.
Section 2556 authorizes a party in a marital dissolution action to “file a
postjudgment motion or order to show cause in the proceeding in order to
obtain adjudication of any community estate asset or liability omitted or not
adjudicated by the judgment.” Pursuant to section 2556, “even where there is
an ostensible, final and complete judgment the parties may nonetheless
litigate issues of property rights that are not expressly adjudicated by that
judgment.” (In re Marriage of Dunmore (1996) 45 Cal.App.4th 1372, 1379, fn.
6; see also Brunson v. Brunson (1985) 168 Cal.App.3d 786, 788 [mention of
omitted asset in judgment “is not an adjudication of property rights”].) It
would make little sense for us to reverse a judgment that omits some assets
when there is an equivalent and statutory avenue of relief available to
Husband in the trial court. Although we affirm the judgment, we do so
without prejudice to Husband’s rights to move under section 2556 with
respect to the bank account and CD.
2.
a i

Forfeiture of Other Issues
[T]he most fundamental rule of appellate law is that the judgment

challenged on appeal is presumed correct, and it is the appellant’s burden to
affirmatively demonstrate error.’ [Citation.]” (Ruelas v. Superior
Court (2015) 235 Cal.App.4th 374, 383, italics added; accord, In re Marriage

5

C-6
of Arceneaux (1990) 51 Cal.Sd 1130, 1133.) “ ‘To demonstrate error, appellant
must present meaningful legal analysis supported by citations to authority
and citations to facts in the record that support the claim of error.
[Citations.]’ [Citation.] ‘Mere suggestions of error without supporting
argument or authority other than general abstract principles do not properly
present grounds for appellate review.’ [Citation.] ‘Hence, conclusory claims of
error will fail.’ [Citation.]” (Multani v. Witkin & Neal (2013) 215 Cal.App.4th
1428, 1457.)
Moreover, an appellant who challenges the sufficiency of the evidence is
required “ ‘to demonstrate that there is no substantial evidence to support
the challenged findings.’ [Citations.] A recitation of only [appellant’s]
evidence is not the ‘demonstration’ contemplated under the above rule.
[Citation.] Accordingly, if, as [appellant] here contend[s], ‘some particular
issue of fact is not sustained, [he is] required to set forth in [his] brief all the
material evidence on the point and not merely [his] own evidence. Unless this
is done the error [assigned] is deemed to be waived.’ [Citations.]” (Foreman
& Clark Corp. v. Fallon (1971) 3 Cal.3d 875, 881; accord, In re Marriage of
Rothrock, supra, 159 Cal.App.4th at p. 230; Garlock Sealing Technologies,
LLC v. NAK Sealing Technologies Corp. (2007) 148 Cal.App.4th 937,
951; Nwosu v. Uba (2004) 122 Cal.App.4th 1229, 1246.)
Husband’s 68-page opening brief is a scattershot, one-sided
representation of the proceedings. Husband’s brief “ignores the precept that
all evidence must be viewed most favorably to [the prevailing party] and in
support of the [judgment].” (In re Marriage of Davenport (2011) 194
Cal.App.4th 1507, 1531 (Davenport).) This precept applies equally where the
trial court issued a statement of decision: “ ‘Where [a] statement of decision
sets forth the factual and legal basis for the decision, any conflict in the

6

C-7
evidence or reasonable inferences to be drawn from the facts will be resolved
in support of the determination of the trial court decision.’ [Citation.]” (Ibid.)
Husband essentially asks this court to reweigh the evidence, which is
not the function of the reviewing court. (In re E.M. (2014) 228 Cal.App.4th
828, 839.) When an appellant attempts merely to reargue the “facts,” the
argumentative presentation violates established appellate principles, and
also “disregards the admonition that [he] is not to ‘merely reassert [his]
position at. . . trial.’ [Citation.]” (Davenport, at p. 1531.) This “factual
presentation” is an improper attempt “to reargue on appeal those factual
issues decided adversely to [the party] at the trial level, contrary to
established precepts of appellate review.” (Ibid.)
“While we are mindful that [Husband] is representing himself on
appeal, his status as a party appearing in propria persona does not provide a
basis for preferential consideration. A party proceeding in propria persona ‘is
to be treated like any other party and is entitled to the same, but no greater
consideration than other litigants and attorneys.’ [Citation.] Indeed, ‘ “the in
propria persona litigant is held to the same restrictive rules of procedure as
an attorney.” ’ [Citation.]” (First American Title Co. v. Mirzaian (2003) 108
Cal.App.4th 956, 958, fn. 1.) Therefore, except for the issue discussed in part
B., ante, Husband has forfeited his right to appellate review of the remaining
issues, and we affirm the judgment on that basis.
3.

No Error

Even if we were to consider the merits of Husband’s claims, we would
conclude on this record that he has failed to demonstrate reversible error.
a.

Watts Charges and Epstein Credits

Husband contends the trial court erred in awarding Wife Watts charges
and denying him Epstein credits. “ ‘Where one spouse has the exclusive use

7

C-8
of a community asset during the period between separation and trial [on
distribution of marital property], that spouse may be required to compensate
the community for the reasonable value of that use.’ ” {In re Marriage of
Falcone & Fyke (2012) 203 Cal.App.4th 964, 978.) “The right to such
compensation is commonly known as a ‘ Watts charge,

{Ibid.)

see Watts, supra, 171 Cal.App.3d at pp. 373—374.) Conversely, when a spouse
uses separate property funds after separation to pay a preexisting community
obligation, the paying spouse may seek an “ ‘Epstein credit’ ” for those
payments upon division of the community estate. {In re Marriage of
Jeffries (1991) 228 Cal.App.3d 548, 553 {Jeffries)) see Epstein, supra, 24
Cal.3d at pp. 84—85.) “Watts charges” are in essence “ ‘usage charges,
and Epstein credits are “ ‘payment credits.’ ” {Jeffries, supra, at p. 552.)
The trial court has discretion, based on equitable considerations,
whether to allow Watts charges or Epstein credits. {Epstein, supra, 24 Cal.3d
at pp. 83-85; Watts, supra, 171 Cal.App.3d at p. 374; see In re Marriage of
Hebbring (1989) 207 Cal.App.3d 1260, 1272.)
Here, the trial court considered all of the surrounding circumstances
and concluded “the equities . . . clearly favor[ed] [Wife].” The house was
“clear and free of any mortgage and [Husband] had exclusive use and control
of the property for over eight years except for seven months in 2012.” Wife
“left the residence with the children in 2007 after years of what she credibly
testified was abuse by [Husband] . . . .” Except for seven months in 2012,
Husband resided by himself in the residence, while Wife lived in various
locations throughout the Bay Area, “renting or sharing a residence with third
parties, the whole time maintaining custody” of the parties’ two children. On
this record, the trial court’s fair and sensible decision can hardly be
characterized as an abuse of discretion.

8

C-9
b.

Constructive Trust

Husband contends the trial court erred in imposing a constructive trust
which was “against the law.” The court determined Husband breached his
fiduciary duties under section 721, subdivision (b), as well as his duties of
disclosure under sections 1100 and 2100 when he transferred the assets of
Komsoft, a community business asset, with the intent to conceal and deprive
Wife of her share of the assets and income. Then, in direct violation of court
orders prohibiting him from changing its corporate structure, Husband
dissolved Komsoft. Husband failed to advise Wife and the court about: 1) the
creation of Maremarks, a new entity; 2) the transfer of assets from Komsoft
to Maremarks; and 3) the dissolution of Komsoft.
An appraisal expert appointed by the trial court (Evid. Code, § 730)
opined there was “no question that Maremarks is a continuation ... of
Komsoft.” Maremarks had the same vendors, clients, and employees as
Komsoft.
The trial court determined that due to Husband’s fraudulent conduct, it
was an “appropriate case” to find that Husband had held Wife’s interest in
Komsoft/Maremarks in constructive trust. Substantial evidence supports
this finding.
c.

Motion to Vacate

The trial court did not err in denying Husband’s August 17, 2017
motion to vacate as untimely. Time for challenging the property judgment
(entered June 21, 2016) had long since passed.
C.

The Support Judgment (A151036)
1.

Sale of the Marital Residence

Husband argues the trial court erred by “ordering his eviction” and
authorizing sale of the marital residence after he perfected this appeal.

9

C-10
Husband claims reaching “property . . , after entry of judgment” was an act in
excess of jurisdiction.
The court granted a temporary stay of the sale on the condition that
Husband provide security. After Husband failed to post the security, the
court lifted the stay and ordered the marital residence be sold to satisfy the
support judgment. The trial court did not interfere with appellate review (cf.
Smith v. Smith (1941) 18 Cal.2d 462, 464—465) or otherwise exceed its
jurisdiction.
As a court of equity, a family court retains inherent jurisdiction to
oversee and enforce execution of its decrees. This includes the broad powers
under Code of Civil Procedure sections 128 and 187, which permit a court to
compel obedience by all means necessary, and by any suitable process or
mode of proceeding. (See, e.g. Bonner v. Superior Court (1976) 63 Cal.App.3d
156, 164-165 [court had power to order sale of property where one spouse
failed to make equalizing payment to other]; In re Marriage of Economou
(1990) 224 Cal.App.3d 1466, 1475-1476 [court had power to enter default
judgment against non-compliant husband].)
It was within the court’s discretion to order the sale of the marital
residence to satisfy Husband’s support obligations. (§ 4610.)
2.

Spousal Support

Husband contends the trial court erred when it denied his October 18,
2011 motion to modify spousal support. The trial court determined it lacked
jurisdiction to modify its temporary support order. “[A] trial court lacks
jurisdiction to retroactively modify a temporary support order to any date
earlier than the date on which a proper pleading seeking modification of such
order is filed (In re Marriage of Gruen [(2011)] 191 Cal.App.4th [627,] 631),
unless the trial court expressly reserves jurisdiction to amend the support

10

C-11
order such that the parties’ clear expectation is the original support award is
not final (In re Marriage of Freitas [(2012) 209 Cal.App.4th [1059,] 1062,
1075).” (In re Marriage of Spector (2018) 24 Cal.App.5th 201, 210.)
The record reflects that a commissioner declined to rule on the
Husband’s October 18, 2011 motion and instructed him to refile his motion in
the proper trial department. The motion was never refiled. Indeed, at an
April 18, 2015 hearing, Husband’s attorney acknowledged that the only
pending support issue pertained to child support. Nothing in the record
supports Husband’s argument that the court reserved jurisdiction to amend
the temporary spousal support order. The trial did not err in refusing to
modify the temporary spousal support.
3.

Child Support

Husband argues the trial court erred when it ordered him to pay child
support after March 13, 2013. He also contends the imputation of income to
him is “counter to the evidence.” Not so.
The court found Husband’s testimony in the multi-day trial was “often
vague, evasive, and simply less than credible[.]” The court determined that
Husband had not made a good faith effort to comply with job search orders.
The court imputed income of $80,000 per year to Husband, which was the
amount he reported making when he laid himself off in 2010. The court
imputed an additional $3,359 per month based on the average of Husband’s
reported personal and living expenses. The court calculated Husband’s
combined annual income as $120,308 ($80,000 + $40,308 [$3,359 x 12
months]). The court noted this amount was less than the previously
calculated income available for support. The findings are supported by
substantial evidence. We will not reweigh Husband’s conflicting evidence
and will not redecide the court’s factual findings.

11

C-12
4.

Motion to Vacate

The trial court did not err in denying Husband’s January 20, 2017
motion to vacate the support judgment. Husband’s claim that Wife had
remarried and had acquired real property worth $1.4 million had already
been considered and rejected by the trial court.
DISPOSITION

The judgment is affirmed.

12

C-13
Siggins, P.J.
WE CONCUR:

Fujisaki, J.

Jackson, J.

A151036, A149624
13

Case 3:18-cr-00368-CRB Document 166 Filed 07/21/20 Page 1 of 2

1

F-l

DAVID L. ANDERSON (CABN 149604)
United States Attorney

2
3
4
5

HALLIE HOFFMAN (CABN 210020)
Chief, Criminal Division
AUEIREY B. HEMESATH (CABN 212757))
Special Assistant United States Attorney
MICHAEL A. RODRIGUEZ (NYBN 4938262)
Assistant United States Attorney

6
450 Golden Gate Avenue, Box 36055
San Francisco, California 94102-3495
Telephone: (916) 554-2729
FAX: (415)436-7027
Audrey .Hemesath@usdoj .gov
Michael.Rodriguez@usdoj .gov

7
8
9
10

Attorneys for United States of America

11
UNITED STATES DISTRICT COURT
12
NORTHERN DISTRICT OF CALIFORNIA
13

SAN FRANCISCO DIVISION

14
15

UNITED STATES OF AMERICA,

) CASE NO. 18-368 CRB
)

Plaintiff,

16
17
18
19

v.
ABHIJIT PRASAD,
Defendant.

) STIPULATION AND [PROPOSED] ORDER
)
)
)
)
)
)

20
21

The United States respectfully advises that defendant Abhijit Prasad was hospitalized over the

22

weekend, with a diagnosis of myocardial infarction (heart attack), resulting in the placement of stents.

23

Prasad has returned to FCI Lompoc (Camp), and his BOP medical records indicate that he reports

24

feeling better. BOP medical records also note a list of Prasad’s new medications.

25

Meanwhile, Prasad has been designated by the BOP to serve the remainder of his sentence on

26

home confinement. His BOP records indicate a date of August 20, 2020, for transfer to the residential

27

reentry center for processing to home confinement. The August 20 date accommodates a 14-day period

28

of quarantine at the BOP before transfer.

Case 3:18-cr-00368-CRB Document 166 Filed 07/21/20 Page 2 of 2

F-2
1

Because Prasad has been designated to serve the remainder of his sentence on home

2

confinement, the parties hereby stipulate to continue the status conference to August 21, 2020. The

3

parties will provide a further status update on that date.

4

Respectfully submitted,

5
6

Dated: July 21, 2020

7

David L. Anderson
United States Attorney
/s/ Audrey B. He mesath
AUDREY B. HEMESATH
MICHAEL A. RODRIGUEZ
Assistant United States Attorneys

8
9
10
11
12
13
14

15
16
17
18
19
20
21
22
23
24
25
26
27
28

Dated: July 21, 2020
/s/ Juliana Drous
JULIANA DROUS
Attorney for Abhijit Prasad

Additional material
from this filing is
available in the
Clerk's Office.

